OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/MOZAMBIQUE’S
HIV/AIDS TREATMENT
PROGRAM
AUDIT REPORT NO. 4-656-10-006-P
JULY 16, 2010




PRETORIA, SOUTH AFRICA
Office of Inspector General



July 16, 2010

MEMORANDUM

TO:             USAID/Mozambique Mission Director, Todd Amani

FROM:           Acting Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:        Audit of USAID/Mozambique’s HIV/AIDS Treatment Program (Report No. 4-656-
                10-006-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those comments in
their entirety as appendix II.

The report includes 12 recommendations to strengthen USAID/Mozambique’s HIV/AIDS
treatment program.       After evaluating management’s comments, we considered that
management decisions have been reached on recommendations 1, 2, 4, 5, 6, 7, 8, 9, and 12.
Please provide the Office of Audit Performance and Compliance Division (M/CFO/APC) with the
necessary documentation to achieve final action on these recommendations.

In light of management’s comments, we consider that management decisions have not been
reached on recommendations 3, 10, and 11. We ask that you provide us written notice within
30 days regarding any additional information related to actions planned or taken to implement
recommendations 3, 10, and 11.

Thank you for the cooperation and courtesy extended to my staff during the audit.
CONTENTS
Summary of Results ................................................................................................. 1
Audit Findings ........................................................................................................... 8
Is USAID/Mozambique’s HIV/AIDS treatment program achieving its goals of
mitigating the impact of the epidemic in Mozambique and supporting the country’s
health system for HIV/AIDS treatment? ...................................................................... 8
          Partners Reported Performance Data Inconsistently ...................................... 8
          HAI Could Not Always Support the Data It Reported ...................................... 8
          USAID/Mozambique Did Not Develop a Fiscal Year 2009
          Performance Management Plan.................................................................... 10
          USAID/Mozambique Should Strengthen Pharmacy
          Stockroom Management ............................................................................... 11

Has USAID/Mozambique effectively implemented the recommendations from Audit
Report 4-656-09-001-P? ........................................................................................... 12
          Central Warehouse Drug Inventory System Was Inadequate....................... 13
          Warehouses and Pharmacies Still Were Not
          Storing Antiretroviral Drugs Properly............................................................. 15
          USAID/Mozambique Still Was Not Enforcing Branding Policy ...................... 17
Evaluation of Management Comments ................................................................. 20
Appendix I – Scope and Methodology .................................................................. 23
Appendix II – Management Comments ................................................................. 25
SUMMARY OF RESULTS
The U.S. Government’s global HIV/AIDS program, launched in 2003 as the President’s
Emergency Plan for AIDS Relief (PEPFAR), has reported supporting antiretroviral
treatment for 2.1 million people and care for more than 10.1 million through September
2008. To build on these achievements, Congress passed legislation in July 2008 1
extending the HIV/AIDS program and authorizing up to $48 billion over the next 5 years
to continue U.S. efforts against HIV/AIDS, tuberculosis, and malaria around the world.

Mozambique has been a focus of these efforts. 2 Mozambique is facing a severe,
generalized HIV/AIDS epidemic. In 2007, the prevalence of HIV infection among adults
ages 15 to 49 was estimated to be 12.5 percent, and an estimated 1.5 million people
were living with HIV/AIDS. 3 The maps on the following page illustrate prevalence rate
shifts and concentrations by province in Mozambique from 2003 through 2009. A civil
war restricted movement within and outside the country until 1992, but returning
refugees, as well as economic and commercial activity since then, have rapidly driven
HIV prevalence to levels nearly as high as those in neighboring countries.

The U.S. Government channels a large percentage of its total funding for combating
HIV/AIDS in Mozambique through USAID.             The goals of USAID/Mozambique’s
HIV/AIDS program are to mitigate the impact of the epidemic in Mozambique and to
support the country’s health system for HIV/AIDS treatment.

In March 2008, the Office of Inspector General performed an audit to determine whether
USAID/Mozambique properly procured, deployed, and warehoused PEPFAR
commodities. 4 The audit found that the mission needed to coordinate more closely with
USAID/Washington staff to (1) establish policies and procedures for expired drugs, (2)
improve warehouse storage conditions, and (3) coordinate donor efforts in procuring and
distributing essential antiretroviral drugs.         The audit report included eight
recommendations to strengthen USAID/Mozambique’s efforts to monitor the
procurement, deployment, and warehousing of PEPFAR commodities. The current audit
follows up and builds on that audit, with a focus on HIV/AIDS treatment activities.




1
  Tom Lantos and Henry J. Hyde United States Global Leadership against HIV/AIDS, Tuberculosis, and
Malaria Reauthorization Act of 2008 (Public Law 110–293).
2
  Mozambique is 1 of 15 PEPFAR focus countries. Focus countries are home to approximately 50 percent
of the world’s HIV-infected persons. The focus countries are Botswana, Côte d’Ivoire, Ethiopia, Kenya,
Mozambique, Namibia, Nigeria, Rwanda, South Africa, Tanzania, Uganda, and Zambia in Africa; Guyana
and Haiti in the Caribbean; and Vietnam in Asia. Total funding for Mozambique under the United States
Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act was $226.4 million for
2009, making Mozambique the eighth largest HIV/AIDS funding recipient.
3
    UNAIDS, Report on the Global AIDS Epidemic, 2008.
4
  Audit Report 4-656-09-001-P, "Audit of USAID/Mozambique’s Procurement and Distribution of
Commodities for the President’s Emergency Plan for AIDS Relief," December 18, 2008.


                                                   1
Maps show the introduction of antiretroviral treatment and the prevalence rate by province
for 2003, 2006, and 2009. PTV is the Portuguese acronym for prevention of mother-to-child
transmission. (Provided by USAID/Mozambique)

USAID/Mozambique’s fiscal year (FY) 2009 treatment program involved three major
implementing partners:

   Health Alliance International (HAI) - USAID signed a cooperative agreement for
    $57.3 million with HAI to provide HIV/AIDS-related services in Mozambique from
    January 2004 through October 2009.

   Family Health International (FHI) – USAID signed a cooperative agreement for
    $16.9 million with FHI to provide HIV/AIDS-related services in Mozambique from
    June 2006 through November 2009.

   Supply Chain Management System (SCMS) – USAID obligated $51.9 million for
    FY 2007–09 activities related to a task order with SCMS to help the Mozambican
    Ministry of Health improve its drug (including antiretroviral) storage and distribution
    system.




                                              2
The Office of Inspector General conducted this audit as part of its FY 2010 audit plan to
answer the following questions:

   Is USAID/Mozambique’s HIV/AIDS treatment program achieving its goals of
    mitigating the impact of the epidemic in Mozambique and supporting the country’s
    health system for HIV/AIDS treatment?

   Has USAID/Mozambique effectively implemented the recommendations from Audit
    Report 4-656-09-001-P?

Is USAID/Mozambique’s HIV/AIDS treatment program achieving
its goals of mitigating the impact of the epidemic in Mozambique
and supporting the country’s health system for HIV/AIDS
treatment?
USAID/Mozambique is partially achieving its goals. On the basis of discussions with
implementing partners and Mozambican government health officials, the audit found that
patients on HIV/AIDS treatment in the provinces the audit team visited were living longer
and with a better quality of life than they would have without USAID support. These
officials also stated that the antiretroviral drugs, provided free by the U.S. Government,
were invaluable in treating infected Mozambicans. However, the mission conceded it
was less successful in achieving its intended results in terms of increasing the number of
new antiretroviral therapy patients and the number of individuals trained in HIV-related
institutional capacity building. (See the following table.)

FY 2009 Performance Results Reported by Mission for HIV/AIDS Treatment
Program                          Indicator                          Target      Reported       Percent
  Area                                                                           Result*      of Target
                                                                                              Achieved
             Individuals ever on antiretroviral therapy at the
             end of the reporting period                             50,988       51,070         100
             Individuals receiving antiretroviral therapy at the
Treatment    end of the reporting period                             43,017       38,728          90
             New antiretroviral therapy patients during the
             reporting period                                        24,448       13,337          55
             Treatment sites supported                                 95          93**           98
             Individuals trained in HIV-related institutional
Training
             capacity building                                        960           503           52
* These reported amounts were not reliable because of inconsistencies in reported amounts and
insufficient support.
** The target included both primary and satellite treatment centers. The Ministry of Health did not include
satellite centers in its reporting on this indicator and so USAID reported 62 instead of the 93 treatment
sites supported by USAID programs. In order for the target and reported result to be comparable, we
have adjusted the reported figure to conform to the methodology used to develop the target.




                                                      3
Two reasons for this lack of success follow:

     According to HAI officials, the Mozambique national health system did not have as
      much capacity to absorb new patients as USAID/Mozambique expected when it set
      performance targets; therefore, targets for new treatment patients proved too
      ambitious.

     The Mozambique Ministry of Health restricted the opening of new treatment sites,
      shifting emphasis to increasing health staff, and improving infrastructure and
      managerial capacity.

Still, the mission could strengthen its HIV/AIDS treatment program. Specifically, the
mission needs to address the following problem areas.

Inconsistent Data (page 8) – USAID’s Automated Directives System (ADS) 203.3.4.2
states that performance indicators should be unambiguous about what is being
measured. Nonetheless, implementing partners differed in how they were reporting on
the five program indicators shown in the table above. Inconsistency in reporting arose
because USAID/Mozambique had not provided its implementing partners with sufficient
guidance concerning the tracking and reporting of service statistics. In addition, as
discussed below, the mission lacked a performance management plan for FY 2009,
which would have included a precise definition of this indicator. As a result, mission staff
combined inconsistent performance data and reported them to mission management,
USAID/Washington, and other stakeholders who may not have been aware that the data
were unreliable. To help ensure that reported information meets the data quality
standards in ADS 203.3.5.1, we recommend that USAID/Mozambique define its
performance indicators and outline the steps for collecting data on those performance
indicators.

Unsupported Data (page 8) – USAID guidance emphasizes the quality of performance
information. 5 Internal control standards published by the Government Accountability
Office (GAO) 6 state that transactions should be promptly recorded and documented and
that the documentation should be readily available for examination.

Notwithstanding these requirements, the audit team could not substantiate the quarterly
report HAI submitted to USAID/Mozambique for April through June 2009. Records kept
by the clinics HAI supported on the number of new clients served in June 2009 did not
support HAI’s data, and HAI also could not provide support for the number of people it
reported having trained during this quarter. Discrepancies arose because clinic
personnel lacked training and HAI had weak internal controls for monitoring and
evaluating data. As a result, USAID/Mozambique does not have reliable data for making
decisions.

We recommend that USAID/Mozambique train personnel working for implementing
partners and for HIV/AIDS treatment facilities in recording, summarizing, and reporting
data and in maintaining source documents. We also recommend that the mission obtain
documentation of quarterly reports from its partners as part of its monitoring and
evaluation of their activities.


5
    USAID’s TIPS Number 12, “Guidelines for Indicator and Data Quality.”
6
    Standards for Internal Control in the Federal Government, November 1999.

                                                4
No Fiscal Year 2009 Performance Management Plan for HIV/AIDS Activities
(page 10) – USAID’s ADS states that operating units must complete performance
management plans that (1) identify the performance indicators to be tracked; (2) specify
the source, method of collection, and schedule of collection for all required data; and (3)
assign responsibility for collection to a specific office, team, or individual. USAID’s
Performance Management Toolkit provides additional criteria for performance
management plans.

USAID/Mozambique did not have a performance management plan that covered
FY 2009 HIV/AIDS treatment activities. According to the mission, the omission of
FY 2009 from its strategic plans resulted in the failure to prepare a performance
management plan for FY 2009. Without a complete performance management plan,
USAID/Mozambique could not be sure that program data supported sound management
decisions.

For FY 2010, we recommend that USAID/Mozambique complete a performance
management plan that complies with Automated Directives System 203.3.3 and USAID’s
Performance Management Toolkit and includes data for FY 2009.

Deficient Pharmacy Stockroom Management (page 11) – GAO’s Standards for
Internal Control in the Federal Government notes that vulnerable assets should be
counted and compared with control records periodically to help reduce the risk of errors,
fraud, misuse, or unauthorized alteration. Moreover, guidelines developed under the
DELIVER project for storing health commodities 7 note that periodic physical inventories
should be conducted; significant differences noted; and problems identified,
documented, and corrected.

Despite these requirements, 50 percent of the clinic pharmacies visited had problems
accounting for health commodities. Of the 10 clinic pharmacies visited, 3 did not keep
stock records, and 2 of the 7 with stock records could not reconcile those stock records
with the quantities on hand. In explaining why inventory discrepancies existed at the
clinic pharmacies visited, USAID and implementing partner officials indicated that
because USAID’s implementing partners have only recently focused on pharmacy
operations, many pharmacy staff members are untrained, and pharmacy operations are
unmonitored. Additionally, USAID’s agreements with implementing partners that support
these clinics were not focused on improving commodity management; therefore, these
partners were not specialists in this area. Insufficient controls at clinic pharmacies put
the pharmaceuticals at unnecessary risk of theft, waste, or misuse.

We recommend that USAID/Mozambique facilitate the development of a plan to
encourage coordination among implementing partners on supply chain management
technical assistance and training. We also recommend that USAID/Mozambique, in
collaboration with its implementing partners, provide commodities management
assistance and training to clinic personnel.




7
  John Snow, Inc./DELIVER, in collaboration with the World Health Organization, Guidelines for the Storage
of Essential Medicines and Other Health Commodities, 2003. DELIVER is a USAID-funded project
implemented by John Snow, Inc., to increase the availability of essential health supplies to clients and
customers around the world.


                                                    5
Has   USAID/Mozambique      effectively  implemented                                 the
recommendations from Audit Report 4-656-09-001-P?
This audit also disclosed that USAID/Mozambique did not effectively implement four
recommendations from Audit Report 4-656-09-001-P. Although the mission effectively
addressed three of the seven recommendations, the areas addressed by the four
remaining recommendations continued to be problematic (pages 12-13).

Inadequate Drug Inventory System at the Central Warehouse (page 13) –
Recommendation 2 from Audit Report 4-656-09-001-P stated: “We recommend that
USAID/Mozambique, in collaboration with the Supply Chain Management System and
the Ministry of Health’s Center for Medicines and Medical Supplies, 8 incorporate
measures to improve commodity storage conditions into project work plans.” Although
the mission stated that it was developing a revised work plan that explicitly incorporated
measures to improve commodity storage conditions and set a target implementation
date of January 31, 2009, this audit disclosed that commodity storage at the central
warehouse in Maputo continues to be a problem.

The Maputo warehouse has not had an accurate, comprehensive inventory
management system, which is essential to the proper management of commodities,
since April 2009. In addition, one of the three buildings at the warehouse was almost full
of damaged or expired commodities. This situation arose because USAID and Supply
Chain Management System did not consider the impact of not having an inventory
management system, and instead focused on long-term solutions to the central
warehousing problems. As a result, significant but unknown quantities of commodities
were lost.

We recommend that USAID/Mozambique develop and implement controls to help
ensure that the Maputo warehouse inventory management system accounts for all
commodities in the warehouse.      We also recommend that USAID/Mozambique
collaborate with Mozambique's Ministry of Health to properly dispose of expired and
unusable commodities in the Maputo warehouse.

Improperly Stored Antiretroviral Drugs (page 15) – Recommendation 3 from Audit
Report 4-656-09-001-P stated: “We recommend that USAID/Mozambique, in
cooperation with Supply Chain Management System, develop and implement a
monitoring and evaluation plan for PEPFAR commodity storage to ensure that
commodities are stored in accordance with John Snow International/DELIVER
Guidelines for Proper Storage of Health Commodities.” Although the mission stated that
it had complied, this audit identified several problems with commodity storage at all
levels of the supply chain.

Of the 10 pharmacies visited, 4 had expired drugs stored with unexpired drugs, and
antiretroviral drugs with different expiration dates stored in the same box. Boxes at one
warehouse were stacked too close to the wall and too close to each other.
USAID/Mozambique and implementing partner officials explained that because USAID’s
implementing partners have only recently focused on pharmacy operations, many of
pharmacy staff members are untrained, and pharmacy operations are unmonitored. As

8
  The Center for Medicines and Medical Supplies is responsible for managing most logistics
related to the HIV/AIDS program for the Mozambique Ministry of Health.

                                            6
a result, the mission and its partners run the risk that patients at clinics they support will
receive expired drugs.

We recommend that USAID/Mozambique, in collaboration with its implementing
partners, provide training to warehouse and pharmacy staff on proper pharmaceutical
storage.     We also recommend that USAID/Mozambique assess participating
pharmacies, identify commodity management weaknesses, and correct identified
weaknesses.

Insufficient Branding of Items Provided by the United States (page 17) –
Recommendation 8 from Audit Report 4-656-09-001-P stated: “We recommend that
USAID/Mozambique develop procedures and implement a plan to verify partner
compliance with USAID’s branding requirements.” USAID/Mozambique responded that
it had reminded mission and implementing partner staff of USAID branding
requirements, enhanced its site visit planning and reporting program, and trained USAID
staff on how to perform site visits. Nevertheless, the audit noted several building and
construction sites funded by USAID that lacked signs acknowledging USAID, as well as
infrequent branding of antiretroviral drugs as “from the American people.” Insufficient
marking of U.S. Government-funded commodities does not achieve the aim of identifying
them as American aid.

We recommend that USAID/Mozambique collaborate with Supply Chain Management
System to ensure that boxes of antiretroviral drugs are labeled according to ADS chapter
320.

We also recommend that USAID/Mozambique enforce its partners’ compliance with
USAID’s branding requirements, including obtaining documentation from partners that
they have effectively communicated to service providers and beneficiaries that the
American people are funding the HIV/AIDS program activities.

More detailed findings appear in the following section.

Management comments are included in their entirety in appendix II.




                                              7
AUDIT FINDINGS
Is USAID/Mozambique’s HIV/AIDS treatment program achieving
its goals of mitigating the impact of the epidemic in Mozambique
and supporting the country’s health system for HIV/AIDS
treatment?
Although USAID/Mozambique’s treatment program has contributed to the national
program to combat HIV, the mission needs to further strengthen its program in several
areas: (1) improving the validity and reliability of reported results, (2) preparing a
complete performance management plan, and (3) improving the management of
treatment commodities. These areas are discussed below.

Partners Reported Performance
Data Inconsistently
Although ADS 203.3.4.2 states that performance indicators should be unambiguous
about what is being measured, HAI and FHI used different methods for reporting their
performance on program indicators. For example, although HAI operations in Tete
Province were largely centralized and focused on assisting the provincial health
department with its operations, HAI claimed that it supported all the clinics in the
province and included the patients served at those clinics in its performance reporting.
In contrast, FHI in Niassa Province had people working at the provincial health
department in Lichinga, but because FHI was actively supporting clinics in only three
districts, it reported only the patients receiving treatment in those three districts. This
inconsistency in reporting arose because USAID/Mozambique had not provided its
implementing partners with sufficient guidance concerning the tracking and reporting of
service statistics. If FHI had followed HAI’s reporting standards, it would have reported
patients treated in all 15 districts, inflating the reported amounts for all the treatment
indicators, through its support of the provincial health department.

Because sound decisions require accurate, current, and reliable information, this audit
makes the following recommendation.

   Recommendation 1:       We recommend that USAID/Mozambique               define its
   performance indicators, the collection methodology for data              on those
   performance indicators, and the steps to help ensure that reported      information
   meets the data quality standards in chapter 203 of USAID’s              Automated
   Directives System.

HAI Could Not Always Support
the Data It Reported
Notwithstanding USAID and Federal requirements to record and document transactions,
the quarterly report for April through June 2009 that HAI submitted to
USAID/Mozambique contained data that HAI could not fully support. The number of
patients reportedly served did not agree with the June 2009 records kept at the clinics



                                            8
that HAI assisted. HAI also could not provide support for the number of people it
reported having trained during this quarter.

Lack of Support for the Number of Clients Served – When the audit team reviewed
the database of patient records for one clinic in Manica, data for the second quarter of
2009 had been changed retroactively. Because these changes were not documented
and there was no audit trail to track them, it was impossible to verify the number of
patients served by this clinic during the period. In Tete Province, two clinics had no
data, and staff at a third clinic could not provide supporting documentation during the
audit team’s visit for the results the clinic reported for June 2009. Although the third
clinic subsequently provided some documentation, this information differed significantly
from that in HAI's database: HAI had recorded that 24 new patients had initiated
antiretroviral treatment, although the clinic records indicated that 41 patients had initiated
antiretroviral treatment. In summary, of 10 clinics visited, 6 had no or only a minor
difference from HAI’s database, 3 had either no supporting records or only retroactively
modified records which could not be verified, and 1 clinic’s data varied significantly from
those in HAI’s database.

Asked about the discrepancies, HAI was unsure why the Manica Province clinic’s
records differed from HAI's records. HAI officials stated that clinic staff members may
have made an error when they manually summarized the data, or they may have
updated their electronic records after manually submitting the data to HAI. Thus, the
differences could have been caused by errors, timing differences, or both. At two of the
clinics in Tete, data were maintained by another organization, Médecins Sans
Frontières, whose representatives were not available to provide the audit team with the
needed records. At the third facility, data were available for other months, but not for
June 2009. So, although the database at HAI’s office in Tete supported the number
reported to USAID of new clients served during the quarter, the audit team could not
verify that this information agreed with the data at the clinics.

The problems in Manica can be attributed to inadequate training of the data
maintenance personnel at both HAI and the clinics, as well as to weak internal controls
over monitoring and evaluating indicator data. In the case of Tete, the absence of
records for comparison at two clinics and the significant difference between the third
clinic’s data and HAI’s database call into question the method HAI uses to obtain the
reported data and the strength of controls for maintaining supporting documentation.
These weaknesses render the reported data suspect.

Lack of Support for the Number of People Trained – HAI could not provide adequate
support for 60 (71 percent) of the 84 people it reported having trained from April to June
2009. Although HAI reported the number of people trained, and HAI staff in all three
provinces presented documents to support training, the documentation provided was not
always sufficient. For example, HAI staff in Manica Province provided only a proposed
list of attendees. Furthermore, during the audit team’s visit, HAI staff could not provide
any support for the training in Tete Province.

As indicated above, the total number of people HAI reported training in Manica and Tete
was not adequately supported. The training events were not clearly documented, and
that documentation was not readily available. Without data that are fully supported by
partner records, USAID/Mozambique does not have the reliable information required for



                                              9
informed management decisions.              To address this situation, this audit makes the
following recommendations.

       Recommendation 2: We recommend that USAID/Mozambique provide training
       to staff of all implementing partners and HIV/AIDS treatment facilities on how to
       properly establish reporting cutoff dates, reconcile differences between the
       treatment facilities’ data and partners' databases, and maintain source
       documents to support periodic reporting to USAID.

       Recommendation 3: We recommend that USAID/Mozambique develop and
       implement a system to consistently obtain documentation for quarterly reports
       from its partners as part of its routine monitoring and evaluation of their activities.

USAID/Mozambique Did Not
Develop a Fiscal Year 2009
Performance Management Plan
USAID’s ADS states that operating units must complete performance management
plans for each strategic objective. 9 ADS further notes that performance management
plans shall (1) identify the performance indicators that will be tracked; (2) specify the
source, method of collection, and schedule of collection for all required data; and (3)
assign responsibility for collection to a specific office, team, or individual. 10 USAID’s
Performance Management Toolkit provides additional criteria for performance
management plans:

      Baseline values and performance targets for each indicator should also be included,
       with specifications for the various data sources and collection methods to be
       employed.

      Performance management plans should include periodically sampling and reviewing
       data for completeness, accuracy, and consistency, and field visits should be
       conducted to compare central office records with field site records.

The goal of assessing data from implementing partners is for missions to be aware of
data strengths and weaknesses and of the extent to which data can be trusted when
reporting and making management decisions.

USAID/Mozambique did not have a performance management plan that covered
FY 2009 HIV/AIDS treatment activities. In explaining the absence of this plan, a mission
official noted that the mission had a strategic plan covering FY 2004–FY 2008 and a new
strategic plan covering FY 2010–FY 2015, and that the omission of FY 2009 from its
strategic plans resulted in the failure to prepare a performance management plan for that
year. Although USAID/Mozambique Program Office officials later stated that an
FY 2009 performance management plan was under development, the plan was not
provided to the audit team by the end of our fieldwork at the mission. Several weeks
after the audit fieldwork was completed, the mission provided additional documentation,
but not the complete and approved performance management plan originally requested.


9
     ADS 203.3.3. ADS now refers to “assistance objectives” rather than “strategic objectives.”
10
     ADS 203.3.3.1.

                                                  10
Without a complete performance management plan that provided for all performance
indicators, indicator reference sheets, and data quality testing for all five program
indicators, USAID/Mozambique did not have an important tool for ensuring that program
data quality met acceptable standards of validity, reliability, and accuracy. Without such
assurance, managers lacked important performance information for making sound
management decisions. Had the mission maintained a complete performance
management plan that included FY 2009, many of the data problems identified in this
report might have been avoided or mitigated. To avoid a similar situation in FY 2010,
we make the following recommendation.

   Recommendation 4: We recommend that USAID/Mozambique complete an
   FY 2010 performance management plan that (a) complies with Automated
   Directives System 203.3.3 and USAID’s Performance Management Toolkit and
   (b) includes performance targets and the actual performance data for FY 2009.

USAID/Mozambique Should
Strengthen Pharmacy
Stockroom Management
GAO’s Standards for Internal Control in the Federal Government notes that vulnerable
assets should be counted and compared with control records periodically to help reduce
the risk of errors, fraud, misuse, or unauthorized alteration. Moreover, DELIVER
guidelines indicate that periodic physical inventories should be conducted; significant
differences noted; and problems identified, documented, and corrected.

Despite these requirements, 50 percent of the clinic pharmacies visited had problems
accounting for health commodities. Of the 10 clinic pharmacies visited, 3 did not keep
stock records, and 2 of the 7 with stock records could not reconcile those stock records
with the quantities on hand. Specifically, one clinic pharmacy discovered an on-hand
shortage of more than 14,000 pills, 20 percent of its recorded inventory for the drug
selected, and another clinic pharmacy had more than double the inventory on hand—
2,070 pills—than was indicated in its records. Pharmacy staff members were aware that
stock records should accurately reflect the stock on hand. In a few instances, pharmacy
staff members noted that they would correct differences between the stock on hand and
the stock records by performing an inventory; staff members did not indicate they would
investigate the reasons for any differences, despite the fact that the DELIVER guidelines
indicate problems should be identified, documented, and corrected.

Reconciling stock records with the quantities on hand allows pharmacy staff to identify
theft and waste. Pharmacy staff members who do not understand the importance of
accurate records and reconciliation cannot be expected to properly safeguard the
valuable pharmaceuticals entrusted to them. Additionally, from a monitoring standpoint,
accurate information from the pharmacy about the amount of antiretroviral drugs
dispensed should help the mission and implementing partners monitor the number of
patients treated and estimate demand for those drugs more precisely.

In explaining why these conditions existed at the pharmacies visited, USAID and
implementing partner officials indicated that because USAID’s implementing partners
have only recently focused on pharmacy operations, many pharmacy staff members are
untrained, and pharmacy operations are unmonitored. Additionally, because USAID’s
agreements with its implementing partners that support clinics were not focused on


                                           11
improving commodity management, these partners were not specialists in this area.
However, the audit team observed that USAID does have a partner well qualified in
commodity management: SCMS, 11 which works primarily with the Ministry of Health at
the central warehouses. Commodity management problems could have been handled
more effectively if all of USAID’s implementing partners, including SCMS, had
coordinated their efforts in assisting the Mozambique Ministry of Health.

Insufficient controls at clinic pharmacies put the pharmaceuticals at unnecessary risk of
theft, misuse, or unauthorized alteration. For example, with the current inventory
management system, if theft results in a discrepancy between antiretroviral drugs on
hand and the recorded stock of antiretroviral drugs, pharmacy staff update the records
during the next inventory without following up to determine the cause of the discrepancy
or investigating the theft. If the pharmacy maintained accurate records, they could be a
valuable means of ensuring that the intended beneficiaries receive antiretroviral
treatment. To address this situation, this audit makes the following recommendations.

     Recommendation 5: We recommend that USAID/Mozambique facilitate the
     development of a plan to encourage coordination between implementing partners
     on technical assistance and training in supply chain management.

     Recommendation 6: We recommend that USAID/Mozambique, in collaboration
     with its implementing partners, provide commodities management assistance
     and training at the clinic level.

Has   USAID/Mozambique      effectively  implemented                                     the
recommendations from Audit Report 4-656-09-001-P?
USAID/Mozambique has effectively implemented three of the seven recommendations
reviewed from Audit Report 4-656-09-001-P. One recommendation was partially
implemented, and although three others were implemented, the mission’s actions did not
fully address the problems.

The mission effectively addressed recommendation 5, that USAID/Mozambique should
conduct regular site visits to health facilities and storage warehouses using and storing
PEPFAR commodities. The mission addressed this recommendation by hiring two staff
members dedicated full-time to the commodity and logistics field. Additionally, the site
visit plan for FY 2009 included two site visits related to HIV/AIDS commodities.

The mission effectively addressed recommendation 6, that the mission should develop
procedures to provide mission personnel with improved access to Ministry of Health
project sites. During this audit, the audit team visited more than a dozen Ministry of
Health project sites without difficulty gaining access.

The mission effectively addressed recommendation 7, that the mission should develop
specific procedures to validate reported data from service providers in conjunction with
site visits. The mission adjusted the format of its standard site visit report to include a

11
   USAID/Mozambique procures HIV/AIDS treatment commodities through SCMS. According to
its Web site, SCMS works in collaboration with host-country governments and local and global
partners; procures essential medicines and supplies at affordable prices; helps strengthen and
build reliable, secure, and sustainable supply chain systems; and fosters coordination of key
stakeholders.

                                             12
section on validating reported data, and USAID/Mozambique staff received training on
conducting site visits. Of the 10 clinics the audit team visited during this audit, 4 had
been visited by USAID/Mozambique staff since February 1, 2009, the month when the
site visit report was updated and the training was provided.

The mission also partially implemented recommendation 4, that the mission should (1)
provide a Portuguese translation of the DELIVER guidelines for storing commodities to
all warehouses storing PEPFAR commodities, and (2) conduct inventory management
training and regular site visits. The mission translated the guidelines into Portuguese,
and both provincial warehouses visited had a copy available. However, inventory
management was still a problem at all levels of the supply chain, indicating that inventory
management training was either ineffective or insufficient.

The mission implemented the three remaining recommendations, but its actions did not
fully resolve the problems with commodity storage and branding and marking that led to
the recommendations. The following sections discuss these problems in detail.

Central Warehouse Drug
Inventory System Was
Inadequate
Recommendation 2 from Audit Report 4-656-09-001-P stated: “We recommend that
USAID/Mozambique, in collaboration with Supply Chain Management System and the
Ministry of Health’s Center for Medicines and Medical Supplies, incorporate measures to
improve commodity storage conditions into project work plans.” 12 In response, the
mission stated that it was developing a revised work plan that explicitly incorporated
measures to improve commodity storage conditions and set a target implementation
date of January 31, 2009. However, this audit disclosed that commodity storage at the
central warehouse in Matola continues to be a problem.

An effective inventory management system is essential to the proper management of
commodities. Consequently, the DELIVER guidelines note that warehouses should
have in place measures to ensure that:

    Storage areas are free from accumulated waste.

    Any spillage is cleaned up.

    The first drugs to expire are the first to be shipped.

    Complete records are maintained of all receipts and issues of materials and
     pharmaceutical products.

    Stocks are checked regularly for obsolete or outdated materials and pharmaceutical
     products.

    Periodic reconciliations of stock records to stock on hand are performed.


12
   The Center for Medicines and Medical Supplies is responsible for managing most logistics
related to the HIV/AIDS program for the Mozambique Ministry of Health.

                                               13
At the time of this audit, all of the antiretroviral drugs procured by the U.S. Government
were stored at the warehouse in Matola after arriving in Maputo. During the audit team’s
visit, the warehouse manager could not tell us the amount of commodities being stored
in the warehouse. Although the Center for Medicines and Medical Supplies is confident
that the warehouse has sufficient physical security to prevent the theft of commodities,
security measures have not been adequate to prevent thefts in the past. Further, when
commodities have been stolen, warehouse managers have not been able to detect the
thefts at the time or determine the extent of any losses.

In addition, one of the three buildings at the warehouse was almost full of damaged or
expired commodities (as shown in the following photo). SCMS officials stated that
pharmacists have been sorting through the various piles of commodities trying to
salvage some of the usable commodities from those that are damaged or expired, but
that the pharmacists have little available time. SCMS officials also indicated that many
commodities in the warehouse are ready for disposal, but the Ministry of Health will not
allocate the necessary funds to dispose of them.




Damaged commodities included this rotten box of USAID-provided condoms. (Photo by
OIG, October 2009)

A significant factor contributing to these problems is that the warehouse did not conform
to DELIVER guidelines. Specifically:

   The warehouse was not organized; boxes were scattered haphazardly throughout
    the facility.



                                           14
    A broken bottle of an unknown commodity was on the floor in the warehouse, and
     loose pills were in the bottom of an otherwise empty box.

    A significant portion of the inventory was not managed according to the first expired,
     first out principle, 13 leaving warehouse management with no way to ensure that
     commodities expiring in the near term were distributed before those expiring at a
     later date.

    A significant portion of the pallets were not labeled; thus, it is unlikely that the
     unlabeled stocks were checked for obsolete and outdated pharmaceutical products.

    Inventory records were not up-to-date. As a result, quantities on hand could not be
     verified against inventory records.

USAID/Mozambique and SCMS officials were too focused on the long-term
implementation of the comprehensive management system to address the conditions at
the warehouse. Officials were overseeing the building of a new warehouse at Zimpeto
to replace the one in Matola and working out provisions for proper inventory controls at
and a gradual transfer of operations to the new facility. However, their long-term focus
did not solve the commodity storage and drug inventory control problems.
Consequently, this audit makes the following recommendations.

     Recommendation 7: We recommend that USAID/Mozambique develop and
     implement controls to help ensure that the central warehouse inventory
     management system accounts for all commodities in the Matola and Zimpeto
     central warehouses.

     Recommendation 8: We recommend that USAID/Mozambique collaborate with
     Mozambique's Ministry of Health to properly dispose of expired and unusable
     commodities in the Matola warehouse.

Warehouses and Pharmacies
Still Were Not Storing
Antiretroviral Drugs Properly
Recommendation 3 from Audit Report 4-656-09-001-P stated: “We recommend that
USAID/Mozambique, in cooperation with Supply Chain Management System, develop
and implement a monitoring and evaluation plan for PEPFAR commodity storage to
ensure that commodities are stored in accordance with John Snow
International/DELIVER Guidelines for Proper Storage of Health Commodities.” In
response, the mission stated that it had (1) provided guidance on storing health
commodities to the Ministry of Health, (2) revised the mission’s site visit documentation
form to include observation of commodity storage conditions, and (3) set a target
implementation date of January 31, 2009. However, this audit identified several
problems with commodity storage at all levels of the supply chain.

The DELIVER guidelines provide warehouse staff with guidance on storing commodities.
For example, the guidelines instruct warehouse staff to quarantine expired stock from

13
  The first expired, first out principle is used to manage perishable commodities. It helps ensure
that commodities with the closest use-by date will be the first issued from inventory.

                                               15
unexpired stock “without delay.” The guidelines also note that pallets of boxes should be
at least 30 centimeters from the wall and 30 centimeters from other pallets, and all
stocks should be managed so that the first stocks to expire are the first stocks issued.

In general, most of the storage areas visited complied with most of the guidelines for
proper storage. For example, most of the facilities appeared to be reasonably well
secured, antiretroviral drugs were stacked no more than 8 feet high and were at least 4
inches off the floor on pallets or shelves, and most were stored away from direct
sunlight. However, in several instances antiretroviral drugs were stored improperly.
Expired antiretroviral drugs were not quarantined; drugs were not managed according to
the first expired, first out principle; and drugs were stacked improperly at a provincial
warehouse. It did not appear, however, that these threats diminished the quality of
treatment delivered to HIV/AIDS patients.

Most significant, 4 of the 10 pharmacies visited had stored expired drugs in the same
area as unexpired drugs, despite the DELIVER guidelines instruction that expired stock
be separated from unexpired stock “without delay.” At the clinic pharmacies, the audit
team also observed antiretroviral drugs with different expiration dates stored in the same
box, as well as unorganized boxes of various commodities. The provincial warehouse in
Tete had boxes that were stacked too close to the wall and boxes that were stacked too
close to each other.




                      At Tete Health Clinic #2, boxes of
                      commodities are stored in an unorganized
                      manner. (Photo by OIG, October 2009)

USAID/Mozambique and implementing partner officials explained that because USAID’s
implementing partners have only recently focused on pharmacy operations, many
pharmacy staff members are untrained, and pharmacy operations are unmonitored.


                                           16
Keeping expired pharmaceuticals side-by-side with unexpired pharmaceuticals
heightens the risk that expired pharmaceuticals will be dispensed to patients. If
pharmaceuticals are not managed by type and expiration date, they cannot be managed
by the first expired, first out principle of pharmaceutical management. Moreover,
maintaining proper storage conditions for health commodities is vital to ensuring their
quality. Product expiration dates are based on ideal storage conditions, and protecting
product quality until the expiration date is important for serving customers and
conserving resources. To address these problems, this audit makes the following
recommendations.

      Recommendation 9: We recommend that USAID/Mozambique, in collaboration
      with its implementing partners, provide training to warehouse and pharmacy staff
      on proper pharmaceutical storage.

      Recommendation 10: We recommend that USAID/Mozambique (a) assess
      participating pharmacies, (b) identify commodity management weaknesses, and
      (c) correct identified weaknesses.

USAID/Mozambique Still Was
Not Enforcing Branding Policy
Section 641 of the Foreign Assistance Act of 1961, as amended, 14 requires that all
foreign assistance programs be identified appropriately overseas as American aid.
USAID’s policy is that programs, projects, activities, public communications, or
commodities implemented or delivered under grants, cooperative agreements, or other
assistance awards are generally “co-branded and co-marked.”                Additionally, a
Mozambique mission order dated October 25, 2007, notes that branding should be
reviewed during site visits and exceptions noted in the site visit report.

Recommendation 8 from Audit Report 4-656-09-001-P stated: “We recommend that
USAID/Mozambique develop procedures and implement a plan to verify partner
compliance with USAID’s branding requirements.” USAID/Mozambique ultimately
indicated that training had been conducted to remind mission and implementing partner
staff of USAID branding requirements. In addition, the mission stated that it had
significantly enhanced its procedures for site visit planning and reporting and had trained
USAID staff to perform site visits. Nevertheless, these actions have not been fully
effective. The audit noted several building and construction sites funded by USAID that
lacked signs acknowledging the Agency, as well as infrequent branding of antiretroviral
drugs as “from the American people.”

At the 10 clinic pharmacies and 2 provincial warehouses visited, the audit team
observed only 2 boxes of antiretroviral drugs that were marked with the USAID or the
U.S. Government logo (see the photos that follow). Although the audit team frequently
observed boxes and posters related to other U.S. Government programs, such as the
President’s Malaria Initiative, that were branded with the USAID or the U.S. Government
logo, only 2 of the 12 sites visited had any signs or labels to indicate the contribution that
the U.S. Government and USAID were making to the treatment of HIV/AIDS patients.
USAID branding requirements are in place to ensure that the American people are
visibly recognized for the foreign assistance that they finance.

14
     22 U.S.C. 2401.

                                             17
When the audit team visited clinics, implementing partner officials pointed out several
buildings and construction projects that were being funded by USAID, but only one
construction site and one building had signs to acknowledge USAID as the financier. In
addition, several clinic and pharmacy employees interviewed were not aware that the
antiretroviral drugs came from the U.S. Government, further illustrating that the mission’s
branding strategy was not fully effective.




At left a box of antiretroviral drugs at the Primero de Maio Clinic in Chimoio, Manica
Province, displays the PEPFAR and USAID logos. At right a sign acknowledges USAID’s
contribution to construction at the Beira Central Hospital. (Photos by OIG, October
2009)

Likewise, boxes of antiretroviral drugs procured by USAID arrived at the central
warehouse without branding. An SCMS official stated that SCMS staff reviewed
shipments and used stickers to brand those they confirmed were procured by USAID.
Although the audit team saw these stickers on pallets of antiretroviral drugs at the
central warehouse, some stickers were placed on the plastic wrapping that is removed
when boxes are shipped to the provincial warehouses. This placement could explain
why most of the boxes of antiretroviral drugs observed at the provincial warehouses and
clinics were not marked with the USAID or U.S. Government logo.

Insufficient marking of U.S. Government-funded commodities does not achieve the aim
of identifying them as American aid. The mission needs an effective system to help
ensure that USAID-funded assistance is appropriately identified and marked.
Accordingly, the audit makes the following recommendations.

   Recommendation 11: We recommend that USAID/Mozambique collaborate with
   Supply Chain Management System to ensure that boxes of antiretroviral drugs
   are labeled according to the Automated Directives System section 320.


                                            18
Recommendation 12: We recommend that USAID/Mozambique enforce partner
compliance with USAID’s branding requirements, including obtaining
documentation from partners that they have effectively communicated to service
providers and beneficiaries that the American people are funding the HIV/AIDS
program activities.




                                     19
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Mozambique agreed with all the
recommendations and noted actions taken to address the recommendations. Based on
the mission’s responses, management decisions have been reached on
recommendations 1, 2, 4, 5, 6, 7, 8, 9, and 12, while management decisions have not
been reached for recommendations 3, 10, and 11. The mission’s comments are
included in their entirety in appendix II (without attachments) and our evaluation of those
comments is summarized below.

For recommendation 1, related to consistent performance indicator definitions and data
quality, the mission stated that all PEPFAR implementing partners were trained and
continue to receive training in performance indicators, collection methodologies, and
steps to ensure reported data meet the requirements of ADS 203. The mission further
stated that it had contracted with MEASURE Evaluation to provide training to PEPFAR
implementing partners on routine data quality assessments. Additionally, the mission is
developing a site-monitoring tool to verify the accuracy of collected data, with an
expected completion date of July 30, 2010. Accordingly, a management decision has
been reached on recommendation 1.

For recommendation 2, regarding training all implementing partner and HIV/AIDS
treatment facility staff on proper reporting to USAID, the mission stated that it is
developing standard operating procedures for reporting cutoff dates, reconciling
implementing partner systems and Government of Mozambique reporting data systems,
and maintaining source documents to support periodic reporting to USAID. The mission
also stated that it will develop a training plan for instructing implementing partners and
Government of Mozambique staff in the use of these standard operating procedures.
Upon further inquiry, the mission estimates that these procedures will be fully deployed
by July 30, 2010. On this basis, a management decision has been reached on
recommendation 2.

For recommendation 3, related to the implementation of a system to consistently obtain
documentation for quarterly reports from its partners, the mission stated that it has a
performance management plan, that all implementing partners are required to report
quarterly, that partners now submit their quarterly reports on time, and that these reports
will be standardized starting with the September 30 quarterly reports. However,
requirements and standards must be enforced. Although the mission noted that data
quality will be reviewed through periodic sampling during site visits, the recommendation
states that documentation substantiating partners’ quarterly reports should be
consistently obtained. USAID/Mozambique must have procedures to ensure that
partners submit their reports and that those reports are complete. Pending receipt of
information about these procedures, a management decision has not been reached on
recommendation 3.

For recommendation 4, related to the completion of an FY 2010 performance
management plan, the mission stated that the performance management plan will be



                                            20
approved and implemented by June 30, 2010. The mission requested that we delete the
phrase “USAID/Mozambique did not have a performance management plan” because
the previous plan was still valid. We disagree because the plan did not include a period
for which it was valid, and there was no indication that the plan was used in 2009.
Additionally, the summary of indicators in that plan shows only 2005 through 2008.
However, the completion of the new plan will address the recommendation; therefore, a
management decision has been reached on recommendation 4.

For recommendation 5, related to developing a plan to encourage partner coordination in
supply chain management, the mission stated that it has allocated specific funding to
support commodity logistics, that USAID implementing partners have incorporated into
their current agreements language to strengthen their support of commodity
management, and that the main supply chain management implementing partner plans
to train provincial advisors and partners in inventory management during 2010. On this
basis, a management decision has been reached on recommendation 5. Final action
will be determined by the Office of Audit Performance and Compliance Division
(M/CFO/APC) after the mission submits substantiating documentation.

For recommendation 6, related to providing training at the clinic level on commodities
management, the mission stated that implementing partners have been working with
provinces to train health worker and pharmacy staff in logistics management.
Additionally, the mission stated that USAID, as cochair of the Medicines Working Group,
is leading a technical subgroup for the development of a training strategy at all levels of
the supply chain, to be completed by August 30, 2010. On this basis, a management
decision has been reached on recommendation 6.

For recommendation 7, related to the inclusion of commodities at the Matola and
Zimpeto central warehouses in the Maputo central warehouse inventory management
system, the mission reported significant progress. The mission noted a number of
actions taken, but principally the recommendation was addressed because, according to
the mission, all USAID-procured commodities are now stored at Zimpeto and included in
the inventory system there. On this basis, a management decision has been reached on
recommendation 7. Final action will be determined by the Office of Audit Performance
and Compliance Division (M/CFO/APC) after the mission submits substantiating
documentation.

For recommendation 8, related to the disposal of expired and unusable commodities in
the Matola warehouse, the mission reported that the long-term warehouse technical
advisor has developed two strategies for the destruction of these expired and unused
commodities; that the advisor was working closely with the Mozambique Ministry of
Health on finalizing the strategy for the Minister to destroy the majority of the products;
that this strategy will be implemented as soon as they receive approval from the
Minister; and that the Medicines Working Group has included this issue in its 2010
annual work plan for resolution in collaboration with the Ministry. Upon further inquiry,
the mission estimates that these actions will be completed by the end of December
2010. On this basis, a management decision has been reached on recommendation 8.

For recommendation 9, related to providing training to warehouse and pharmacy staff on
proper pharmaceutical storage, the mission agreed on the necessity of providing training
at the central, provincial, district, and site levels. The mission stated that training at the
central level has taken place and that implementing partners are working with provinces,


                                             21
districts, and sites to train health worker and pharmacy staff in logistics and commodity
management. This training has already been developed and is being implemented on
an ongoing basis. On this basis, a management decision has been reached on
recommendation 9.

For recommendation 10, related to the assessment of participating pharmacies, the
identification of commodity management weaknesses, and the correction of those
weaknesses, the mission stated that it has carried out various site visits, identifying
weaknesses and providing recommendations for those weaknesses. However, the
response did not elaborate on the extent to which participating pharmacies were (or will
be) reviewed, whether these reviews were (or will be) analyzed to identify systematic
weaknesses, and whether those identified weaknesses were (or will be) corrected.
Pending receipt of additional information detailing the pharmacies that were or will be
reviewed, the weaknesses identified, the recommendations for correcting these
weaknesses, and any systematic issues identified, a management decision has not been
reached on recommendation 10.

For recommendation 11, related to the branding of antiretroviral drugs, the mission noted
that an exemption is in place for pharmaceutical packaging, but that the exemption does
not apply to export packaging. The exemption notes that implementing partners must
compensate for the lack of marking by providing more cost-effective alternatives to
showcase USAID sponsorship. The exemption specifically mentions marking shipping
crates. Although the marking of shipping crates was mentioned as a means to
overcome the absence of pharmaceutical packaging, the mission requested a final
determination from USAID/Washington on an exemption for export package marking by
July 30, 2010. In the meantime, the mission requested that these packages have
stickers applied when the drugs arrive in Mozambique. Pending a final determination
about the exemption, a management decision has not been reached on
recommendation 11.

For recommendation 12, related to enforcement of partner compliance with USAID’s
branding requirements, the mission stated it had added branding compliance monitoring
responsibilities to a dedicated monitoring and evaluation position on the Integrated
Health Team. This position is currently being advertised and is expected to be filled by
December 31, 2010. Responsibilities will include quarterly site visits to monitor branding.
The mission also stated that it will obtain documentation as required under approved
authorized branding and marking plans that meet U.S. Government requirements. On
this basis, a management decision has been reached on recommendation 12.




                                            22
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.    The audit covered the period from October 1, 2008, through
September 30, 2009. Fieldwork was conducted at USAID/Mozambique and at selected
sites throughout Mozambique from October 6 through October 23, 2009. We followed
up with USAID/Mozambique and implementing partner staff from our offices in Pretoria,
South Africa, from October 26 through November 5, 2009.

The objectives of the audit were as follows:

   Is USAID/Mozambique’s HIV/AIDS treatment program achieving its goals of
    mitigating the impact of the epidemic in Mozambique and supporting the country’s
    health system for HIV/AIDS treatment?

   Has USAID/Mozambique effectively implemented the recommendations from Audit
    Report 4-656-09-001-P?

In total, USAID has obligated $74.2 million for the cooperative agreements with HAI and
FHI over the life of the agreements. The audit was limited to the treatment programs
implemented by HAI in Manica, Sofala, and Tete provinces and by FHI in Niassa
Province, and to the activities of SCMS related to treatment commodities and the second
audit objective. We tested the number of individuals receiving antiretroviral treatment,
the number of individuals who started antiretroviral treatment, the number of individuals
who received training related to antiretroviral treatment, and the number of sites
delivering antiretroviral treatment.

In planning and performing this audit, we assessed the effectiveness of key internal
controls related to USAID/Mozambique’s oversight of the treatment program, including
data quality assessments and oversight of antiretroviral procurement, storage, and
distribution.    We also considered Audit Report 4-656-09-001-P, “Audit of
USAID/Mozambique’s Procurement and Distribution of Commodities for the President’s
Emergency Plan for AIDS Relief,” the focus of the second audit objective in this report.
That report made eight recommendations, of which we tested the seven that were
relevant to HIV/AIDS treatment programs.

Methodology
To answer the audit objectives, we interviewed USAID/Mozambique personnel on the
HIV/AIDS team, implementing partner staff, and Mozambique Ministry of Health officials
in Maputo; met with implementing partner and provincial health directorate officials in
Chimoio, Beira, and Tete; reviewed the pharmacy and data collection activities at 10



                                               23
                                                                             APPENDIX I


health facilities and the operations at 2 central warehouses and 2 provincial warehouses;
and reviewed the country assistance strategy and country operational plan. However,
because USAID/Mozambique did not provide us with a performance management plan
that included 2009, we could not review it.

In addition to verifying the support partners supplied for the performance data reported,
we judgmentally selected 10 health facilities out of a total of 59 for detailed testing of
treatment data and review of treatment facility operations, including antiretroviral
pharmaceutical management. These health facilities, which reported treating 13,149
patients in FY 2009, were located in three of the four provinces with HIV/AIDS treatment
programs that are supported by USAID/Mozambique. To cover a significant portion of
the reported number of patients on antiretroviral treatment, we chose health facilities
based on the number of patients they treated. Finally, we reviewed both of the central
warehouses in Maputo as well as the provincial warehouses in Sofala and Tete. The
samples chosen for review cannot be projected to the populations they were drawn from
on a statistical basis, but in combination with other audit procedures performed, such as
discussions with partner officials and the review of relevant documentation, they give us
a reasonable basis for our audit conclusions.




                                           24
                                                                                       APPENDIX II




MANAGEMENT COMMENTS



MEMORANDUM

DATE:            June 11, 2010

TO:              Nathan Lokos, Regional Inspector General/Pretoria

FROM:            Teresa McGhie, USAID/Mozambique Acting Mission Director /s/


SUBJECT:         Audit of USAID/Mozambique’s HIV/AIDS Treatment Program (Report No. 4-656-
10-00X-P)

This memorandum transmits USAID/Mozambique’s response and comment to the Draft Report on
Audit of USAID/Mozambique’s HIV/AIDS Treatment Program transmitted to the Mission on May 4,
2010.

The Draft Report includes 12 recommendations. Mission’s responses and comments include
timeframe to accomplish the recommended actions.

We request that our response be included in its entirety in the final report of the audit.

We appreciate the time and effort that the Regional Inspector General (RIG) staff devoted to its
review of work under this HIV/AIDS Treatment Program and in its preparation of subject draft report
(RIG Draft).

We concur in all the recommendations and provide the following comments. USAID/Mozambique
stands ready to respond to any additional inquiries or provide supporting documents you might
have with regard to this audit.

Recommendation 1
We recommend that USAID/Mozambique define its performance indicators, the collection
methodology for data on those performance indicators, and the steps to help ensure that
reported information meets the data quality standards in chapter 203 of USAID’s Automated
Directives System.

The Mission concurs with Recommendation 1. All PEPFAR implementing partners have now been
trained and continue to receive ongoing training in performance indicators, collections methodology
for these data and steps to ensure reported data meets the data quality standard in chapter 203 of
USAIDs ADS. Standardized data collection and reporting methods, which have been, outlined in
the PEPFAR APR Indicator guidance documents (used during PEPFAR 1) and in the New

                                                  25
                                                                                    APPENDIX II


Generation Indicator guidance document (PEPFAR II). The NGI guidance document includes
standard approaches for defining direct versus indirect support to HIV care and treatment clinical
and community based services, definitions of HIV clinic and community-level performance
indicators and potential source documents and recommended data collection methods.

In addition, during September FY09, USAID Mozambique contracted MEASURE Evaluation to
provide training to PEPFAR implementing partners in Routine Data Quality Assessments (RDQA).
The training is based on the World Health Organization RDQA tool for facility and community-based
health programs and includes the following components: standard operating procedure for sampling
both sites and indicators during the process; central office/headquarters systems assessment and;
trace and verify system which is defined as following specific indicators as they are reported from
the original point-of-service (e.g. community or facility) to point-of-reporting to USAID Mozambique.
The trace and verify process includes assessment of both paper-based and electronic
medical patient tracking systems. PEPFAR implementing partners have continued to receive follow-
up training in use and implementation of the RDQA tool. Furthermore, during FY10, USAID
Mozambique will work with MEASURE Evaluation to implement an external audit system looking at
data quality of PEPFAR implementing partners to resolve problems around data collection and
reporting.

USAID Mozambique is developing a site-monitoring tool with the expected completion date of July
30, 2010, which will verify the accuracy of data collected at sites, and reported to USAID
Mozambique for semi-annual and annual reports. This site-monitoring tool will be strategically
implemented at point-of-service level by USAID Mozambique staff.

Recommendation 2
We recommend that USAID/Mozambique provide training to staff of all implementing
partners and HIV/AIDS treatment facilities on how to properly establish reporting cutoff
dates, reconcile differences between the treatment facilities’ data and partners' databases,
and maintain source documents to support periodic reporting to USAID.

The Mission concurs with Recommendation 2. USAID Mozambique has previously provided
training to all USAID implementing partners and HIV Care and Treatment facilities in general data
collection and reporting techniques. However, USAID is developing Standard Operating Procedure
(SOP) documents and approaches for reporting cut-off dates, reconciliations and the cleaning of
data between implementing partner systems and Government of Mozambique reporting data
systems and the maintenance of source documents to support periodic reporting to USAID. In
addition, the SOP that will be introduced and housed at HIV Care and Treatment facilities and
USAID Mozambique will develop a training plan for instructing implementing partners and
Government of Mozambique staff in the use of these standard operating procedures. Deployment
of these SOPs will begin in August 2010, including distributed to the Government of Mozambique
(GOM) and all implementing partners.

USAID Mozambique will also work to improve the overall alignment of implementing partner data
systems with the GOM reporting systems so that implementing partner systems automatically
produce GOM required reports.

Through the use of the routine site monitoring tool (described in Action Taken to Recommendation
1 above), USAID Mozambique will ensure - during routine site visits - that implementing partners
are in compliance with the protocols and activities outlined in the SOP. The SOP ensures quality
assurance for data collection and reporting; routine and documented steps for data quality cleaning
and verification and; the proper use of source documents to support reporting.

Recommendation 3
We recommend that USAID/Mozambique develop and implement a system to consistently
obtain documentation for quarterly reports from its partners as part of its routine monitoring
and evaluation of their activities.

                                                26
                                                                                   APPENDIX II



The Mission concurs with Recommendation 3. USAID/Mozambique now has a PMP which
establishes baseline values and performance targets for each indicator. Currently, all implementing
partners are required to report on a quarterly basis as noted by RIG/Pretoria in our FY 2010 – 2015
strategic plan. USAID/Mozambique HIV Care and Treatment partners now submit their quarterly
reports on a timely basis these reports will be standardized the different implementing partners and
to further enhance the quarterly reporting format. Periodic sampling of data quality will be will be
conducted during regularly scheduled site visits and this data will be reviewed for accuracy,
completeness and consistency for incorporation into our review of PMP data (regularly scheduled
on a semi-annual basis) during the Mission’s Semi-annual Performance Review (SAPR). The
enhanced quarterly reporting document format will be implemented by July 31, 2010 for the
               th
September 30 quarterly reports.

Recommendation 4
We recommend that USAID/Mozambique complete an FY 2010 performance management
plan that (a) complies with Automated Directives System 203.3.3 and USAID’s Performance
Management Toolkit and (b) includes performance targets and the actual performance data
for FY 2009.

The Mission concurs with Recommendation 4. The Mission has noted some discrepancies in
sections of the report (pages 5 and 10) which discusses the USAID/Mozambique Strategy and PMP
and recommends that the following statements be deleted: “USAID/Mozambique did not have a
performance management plan that covered FY 2009/HIV/AIDS treatment activities” (pages 5 &
10).

USAID/Mozambique had in place an approved strategy that covered the period from 2004-2010
while the current country assistance strategy was in final stages of approval (CAS 2009-2014). The
Country Strategic Plan from 2004 to 2010 was in effect and then was amended by the Strategic
Statement in April 2006. Both were approved by Washington. A PMP was in place for HIV/AIDS
that covered treatment activities for the same period, however, some of the indicators did not have
targets set for FY 2009; yet, the team was following indicators and targets set by the APR and
SAPR and were reported by implementing partners. The program had oversight semi-annually
through these mechanisms. Additionally, progress in relation to targets was measured in the APR
and SAPR and were later transferred to the PMP as requested and provided to the auditors.

During this transition period from one strategy to the next the old PMPs are/were still valid as the
strategy was still valid. Following the approval of the CAS in May of 2009, new assistance
objectives were approved and new PMPs were developed which included targets for the period of
the strategy and actual performance data are in final stages of approval. Draft PMPs were
approved on September 18, 2009, and the final PMP (Attachment A) is currently with Mission
Management for approval per ADS section 203.3.3 which states that PMPs are mandatory and
must be completed within the first few months and before major project implementation actions get
underway. The final PMP will be approved shortly and major project implementation that is new
(not ongoing) is not yet underway. Therefore, the Performance Management Plan that complies
with the ADS and PM Toolkit including performance targets and actual performance data will be for
FY 2009 through FY 2014 will be approved and implemented by June 30, 2010.

Recommendation 5: We recommend that USAID/Mozambique facilitate the development of a
plan to encourage coordination between implementing partners on technical assistance and
training in supply chain management.

The Mission concurs with Recommendation 5. The USAID/Mozambique team recognizes the
problems identified in the audit with the management of the supply chain, particularly at the lower
levels of distribution and health facility pharmacies. Because of these significant challenges the
USAID/Mozambique team has since early 2009, made significant progress in increasing
implementing partner technical, administrative, and financial support for the coordination of supply

                                               27
                                                                                      APPENDIX II


chain management. Implementing partners now have greater access to the health facilities in the
provinces and districts and providing significant direct support to health facilities.
USAID/Mozambique currently has several strategies in place to further increase technical
assistance and training in supply chain management.

1) In early 2009, initial guidelines defining roles and responsibilities between Supply Chain
   Management System (SCMS) and implementing partners for supporting the supply chain
   through technical assistance, financial support, infrastructure, and training at provincial, district
   and clinic level were developed and shared with the clinical partners. Recently, a new version
   of these guidelines has been developed for the Interagency team and shared with partners.
   This is the official guide for implementing partners in the field across agencies to use for
   supporting supply chain activities.

2) USAID has facilitated and encouraged coordination. USAID, jointly with CDC through their
   clinical partners, is funding pharmaceutical logistics and laboratory advisors in all of USAID-
   partner supported provinces. These advisors are based in the provinces and have been
   recruited and approved by the Ministry of Health. Each advisor provides direct support and TA
   to the head of the provincial warehouse, and conducts joint supervision and on-the-job
   mentoring visits to district pharmacies and health facilities. The laboratory advisor is
   responsible for supporting logistics management for laboratory reagents, including test kits,
   which are currently managed by provincial, district and site level laboratories.

3) USAID (jointly with CDC and DOD) have also allocated a budget specifically to each
   implementing partner budget in COP10 to support commodity logistics. This budget includes
   the following:
        Funding to hire a pharmaceutical/logistics advisor for the project to provide TA and
            support to the pharmacy advisor and directly supported health facilities
        Funding to support trainings for the provinces in pharmaceutical logistics management
        Funding to support renovations and small infrastructural improvements to health facility
            and district pharmacies, including ventilation systems, air conditioners, racking and/or
            palettes, etc.
        Funding to procure computers to support implementation of an LMIS at district and
            hospital level, and where necessary and feasible, to procure a vehicle.

4) There has been greater coordination between implementing partners, USG, CMAM, SCMS.
   This includes meetings with CMAM staff and partners around supply chain issues and
   challenges, and how the partners can support the provinces; meetings between SCMS and
   implementing partners with USG.

5) USAID implementing partners have incorporated into their current agreements language to
   strengthen their support to commodity management at the peripheral level, as reported by the
   cognizant COTR for FHI and HAI (email dated 5/20/2010).

6) SCMS has in their workplan for 2010 support training for the provincial advisors and partners in
   inventory management, supply chain management. USAID will work with SCMS and CMAM on
   ensuring appropriate training for the provincial advisors

Finally, USAID is co-Chair of a national Technical Working Group for medicines and medical
supplies. This group has a workplan of activities, including several activities and strategies
developed around training, strengthening the logistics management of medicines and supplies, and
security. Sub-groups have been created to further develop proposals and strategies for
strengthening pharmaceutical supply chain management at all levels and additional security
strategies to prevent theft.




                                                 28
                                                                                       APPENDIX II


Recommendation 6: We recommend that USAID/Mozambique, in collaboration with its
implementing partners, provide commodities management assistance and training at the
clinic level.

The Mission concurs with Recommendation 6. Implementing partners have been working with
provinces to train health worker and pharmacy staff in logistics management. These trainings are
identified by the provinces and organized jointly with our clinical partners in collaboration with
CMAM from central level, who leads the training. USAID will continue to work with partners and
ensure IPs support commodity management training, including incorporating this training into their
workplans.

In addition, JSI/DELIVER and CMAM have finalized the SOPs for the via classica commodity
distribution system. USAID will work with JSI/DELIVER and CMAM to ensure dissemination of
these guidelines to all health facilities and implementing partners.

JSI/DELIVER has been supporting training in logistics management through the Presidential
Malaria Initiative (PMI) funds. Although the training was focused on management of malaria
medicines, the training includes information and training in general logistics management. Lessons
from this training are now being applied across all areas of commodity management, including HIV.

ICMAM with support from SCMS and DELIVER will be training provincial advisors, medical heads
of provinces, and heads of provincial pharmacies in logistics management. This training scheduled
to begin September 1, 2010 will include implementing partners as well. A key component of this
training will be a module on management of ARV drugs and a revised electronic information
management system to support ARV drug management at provincial and district level. This will
provide increased capacity for implementing partners, provincial advisors, and provincial pharmacy
staff to provide additional training and technical assistance to the districts and clinic pharmacy staff.

USAID, as co-Chair of the GTM (Medicines Working Group), is leading a technical sub-group for
the development of a training strategy at all levels of the supply chain. This strategy will be
completed by August 30, 2010.

Recommendation 7: We recommend that USAID/Mozambique develop and implement
controls to help ensure that the Maputo central warehouse inventory management system
accounts for all commodities in the Matola and Zimpeto central warehouses.

The Mission concurs with Recommendation 7. Although the MOH is the responsible entity for the
management of the central warehouse, USAID/Mozambique Mission recognizes the seriousness of
this issue and has been working with the Ministry and through its implementing partner to gain
stock control. The Mission is pleased to report significant progress and steps that have been made
subsequent to the RIG’s review. USAID and SCMS with the Ministry were addressing this issue
during the audit visit, but the improvements were readily determinable. Currently all activities in an
implementation phase have now been completed as follows:

1)   Since the audit visit, the new Zimpeto warehouse has been inaugurated, the majority of the key
     program products and fast moving commodities transferred to Zimpeto from ADIL, and the
     warehouse management information system fully installed and implemented with all data for all
     inventory entered into the system.
2)   When the auditors visited, SCMS was supporting CMAM at the ADIL warehouse in the main
     pavilions – 1, 2 and 3. During this time, the team was supporting palletization of formerly
     blockstacked boxes, and gaining stock control through the implementation of MACS (i.e
     commodity stock information system) at ADIL. During the visit, the auditors were shown MACS
     at ADIL. MACS system is sophisticated and requires all product movement to be entered. Any
     error or failure to enter movement of product automatically is discovered during inventory
     counts.


                                                 29
                                                                                   APPENDIX II


3)   The stocks that were not palletized during the auditors visit were not yet in the system. They
     have since been entered into the system.
         a. Zimpeto is operating with a number of key Standard Operating Procedures (SOP),
              developed by the project and approved by CMAM management that cover inbound,
              outbound, perpetual inventory, and other warehouse management activities related to
              stock control.
         b. b) Ninety five (95) percent of the stocks that were unpalletized when the Auditors
              visited have been since palletized and are located in ADIL 1 and 2, and are all
              managed through MACS warehouse management system. Quantities that are too
              small to palletize are being distributed by CMAM to Maputo area hospitals for
              immediate use.
         c. ADIL is now a satellite warehouse of Zimpeto for storage of bulky items like IV fluids,
              cotton wool, and other items. The stocks are tracked by MACS.
         d. ADIL 3 has become a quarantine area for expired and damaged stocks, awaiting
              destruction
         e. SCMS has advised CMAM on WHO recommendations for management and
              destruction of expried products.         A proposal for CMAM’s implementation was
              presented. CMAM will begin implementing as soon as it meets with the Minister’s
              approval (see Recommendation 8)
4)   This is a priority of both USAID and MOH. There is a plan in place to close ADIL and transfer
     stocks to Zimpeto, but it will take two years to formalize due to space limitations at Zimpeto.
     USAID is currently preparing a procurement for construction of an extension for Zimpeto to be
     able to transfer the remaining commodities to the new warehouse and ensure even greater
     controls. USAID expects this extension to be completed by the end of Q3 2011, after which
     time all of ADIL will be closed (also refer to Recommendation 8).
5)   A long-term TA warehouse advisor is providing systematic support, training and mentoring at
     both ADIL and Zimpeto in the MACS system and overall inventory control.
6)   This system is also planned for implementation at Beira central warehouse starting in Q2 2010.
7)   During 2009, SCMS contracted out a security assessment of Zimpeto and ADIL with
     recommendations. These recommendations are going to be reviewed and decided upon in
     collaboration with the GTM working group. This is to be finalized by the end of Q3 2010.
8)   All USAID procured commodities, particularly ARVs, are now automatically and 100% stored at
     Zimpeto warehouse and never stored at ADIL as Zimpeto is the main warehouse location for
     essential commodities for priority programs.

Recommendation 8: We recommend that USAID/Mozambique collaborate with
Mozambique's Ministry of Health to properly dispose of expired and unusable commodities
in the Matola warehouse

The Mission concurs with Recommendation 8. The USAID/Mozambique Mission fully agrees on
the need to work with the MOH to dispose of expired and unusable commodities. One of the
challenges faced by the Government has been lack of funds for its destruction. The Mission is
pleased to report significant progress has been made related to this recommendation:

1) The long-term Warehouse technical advisor, in accordance with World Health Organization
   recommendations for the destruction of pharmaceutical waste, has developed two strategies for
   the destruction of these expired and unused commodities. The Advisor is working closely with
   CMAM in finalizing the strategy for the Minister to destroy the majority of the products. This
   strategy will be implemented as soon as they receive approval from the Minister.
2) The GTM working group has included this issue in their 2010 annual work plan for resolution in
   collaboration with the Ministry.

Recommendation 9: We recommend that USAID/Mozambique, in collaboration with its
implementing partners, provide training to warehouse and pharmacy staff on proper
pharmaceutical storage.


                                               30
                                                                                     APPENDIX II


The Mission concurs with Recommendation 9. The USAID/Mission agrees on the need to ensure
strengthened support for training to warehouse and pharmacy staff. The support in this area needs
to occur at all levels – Central level with CMAM, provincial, district and site level, in collaboration
between CMAM, SCMS/DELIVER and implementing partners.

Subsequent to this audit, training at central level for CMAM staff in warehouse and pharmaceutical
management has been conducted. Additionally, the following activities have also been
implemented:

1) Development and training in Standard Operating Procedures (SOPs) on Good Warehouse
   Management, including picking and receiving, management of stock status, stock counting
   inventory, dispatching, inventory investigations, movement of stock from ADIL to Zimpeto, and
   other SOP issues.
2) SCMS and DELIVER have finalized and are printing the Via Classica Manual SOPs. These
   manuals include everything from stock management, storage conditions, receiving, issuing,
   reporting, and are separate manuals along the purpose and of the site and level. They are
   broken down as follows: Health Centers/Posts, District Stores, Provincial Stores, Hospitals
   (District, Provincial, Central)
3) The project is supporting CMAM to develop and implement a functional Logistics Management
   Information System (LMIS) down to the Provincial and then District levels. This is expected to
                                                                           rd
   be implemented first at the provincial level starting early September/3 quarter (Q3) 2010, with
   expansion to districts shortly thereafter. The Mission intends to have all districts set up with an
   LMIS by the end of 2010. Starting in Q3, significant training of staff at different levels on via
   classica manuals and the LMIS following initial implementation. From June 7 – 18, SCMS will
   support CMAM to conduct a training for Provincial Pharmacy staff, provincial advisors and
   implementing partners. The trainings on Via classica will follow shortly after that.
4) As mentioned in Recommendation 6, implementing partners are providing training support to
   the provinces, districts and sites in collaboration with SCMS and CMAM.
5) USAID/Mozambique as co-Chair of the Medicines Technical Working group has established a
   sub-Group to prepare additional training strategies for the country, including training in logistics
   management.

Recommendation 10: We recommend that USAID/Mozambique (a) assess participating
pharmacies, (b) identify commodity management weaknesses, and (c) correct identified
weaknesses.

The Mission concurs with Recommendation 10. USAID/Mozambique recognizes the importance of
identifying weaknesses, particularly at site level and between districts, sites, and provinces. Due to
the need to strengthen this component of the supply chain, the following activities and actions have
been implemented or are in progress:

1. USAID/Mozambique has been participating in various site visits, identifying weaknesses and
   providing recommendations for those weaknesses. This feedback is provided to sites, district
   and provincial authorities, and to implementing partners during the visit and in trip reports.
   COTRs/Activity Managers are also incorporating assessments of commodity management
   during their field visits as part of their supervision visits for the partner.
2. An integrated supervision tool has been developed which incorporates all aspects of
   implementation, including support for commodity management.
3. Since early 2009, SCMS has been conducting joint supervision visits with CMAM using a
   modified supervision tool. During these visits, the supervision teams conduct on-the-job
   mentoring and correcting weaknesses identified during the visit.
4. The FHI-hired provincial advisor conducted an assessment in Niassa to identify weaknesses in
   the logistics system, particularly around controls of drugs at hospital pharmacies. This same
   study is planned for implementation in 2010 and is included in the MOH GTM workplan.
5. In line with the pharmaceutical logistics master plan (PLMP), SCMS has supported CMAM and
   the MOH to develop key Performance indicators (KPIs). KPIs are indicators to monitor and

                                                 31
                                                                                       APPENDIX II


   evaluate the supply chain system at all levels. These KPIs form the basis for CMAM’s
   monitoring and evaluation of all supply chain activities, including staff and system performance.
6. The MOH with support from partners will conduct a logistics assessment of rapid test kits,
   including malaria rapid tests in advance of counseling and testing campaign. During this
   assessment, a flow chart for inventory management of test kits will be presented and explained
   to health worker and laboratory staff.
7. USAID is currently supporting implementation of the PLMP. Additional support will cover the
   following areas:
        a. Renovation or expansion/building of district pharmacies to ensure adequate storage
            conditions through construction contracts and clinical partners
        b. Implementation of an LMIS down to the district level, with a short-term and immediate
            plan to implement LMIS of the provincial level until the full system for active distribution
            to districts is achieved (2014);

Finally, the USAID is co-Chair, has specifically requested that the group address immediate
challenges and make National Director for Medical Assistance and Chair of the Medicines Working
Group, for which recommendations to resolve them. He specifically was interested in strengthening
overall management and controls of stocks at the clinic and hospital level. Additionally, one of the
sub-groups of the GTM has been tasked to work in this area.

Recommendation 11
We recommend that USAID/Mozambique collaborate with Supply Chain Management System
to ensure that boxes of antiretroviral drugs are labeled according to the Automated
Directives System section 320.

The Mission concurs with Recommendation 11. The 2006 waiver (Attachment A) from Kent Hill,
Assistant Administrator Bureau for Global Health, states that first and second level packaging does
not need to be branded. But this waiver did not apply to export packaging. Because of this the
Mission asked to have stickers on the export packaging when the shipments arrived in country.

Jan Miller, from GH/SCMS confirms that there is not a waiver not to mark export packaging.
GH/SCMS Washington is in negotiation with USAID/OAA to allow exemption for export package
marking. The Mission awaits further guidance from Washington and has requested a final
determination by July 30, 2010 for resolution of this issue.

Recommendation 12
We recommend that USAID/Mozambique enforce partner compliance with USAID’s branding
requirements, including obtaining documentation from partners that they have effectively
communicated to service providers and beneficiaries that the American people are funding
the HIV/AIDS program activities.

The Mission concurs with Recommendation 12. USAID/Mozambique follows the branding
requirements in accordance with Automated Directives System 320. The Mission has previously
conducted branding trainings for USAID employees as well as USAID partners. An employee
training session took place on February 26, 2009. On April 16 and 17 2009, a partner specific
Maputo-based branding training was conducted for USAID awardees. In addition, grants and
contracts have an approved branding strategy and a marking plan. The Mission monitors the
application of this plan through site visits and the site visit report as required in Mission Order 200-1
(1/26/07). The Mission’s site visit report specifically covers branding and requires note of any
differences from branding and marking plans.

Subsequent to this audit recommendation, the Mission has added branding compliance monitoring
responsibilities to a dedicated FSN position for monitoring and evaluation on the Integrated Health
Team. This position is currently being advertised and will be hired shortly. Responsibilities will
include quarterly site visits to monitor branding among other duties.


                                                 32
                                                                          APPENDIX II


USAID/Mozambique will obtain documentation as required under approved authorized branding
and marking plans that meet USG rules and regulations.




                                          33
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
